Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICAID ESTATE RECOVERY
           PROGRAMS
                      OFFICE      OF INSPECTOR           GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE       OF AUDIT        SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE      OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


              OFFICE      OF EVALUATION              AND INSPECHONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-todate information on the efficiency, vulnerability,
and effectiveness of departmental programs. The report was prepared in the Kansas City
regional office under the direction of Jim Wolf, Regional Inspector General. Project staff
include:

Kansas City                                          Headquarters

Dennis Tharp, Project Leader                         Penny Thompson, Branch Chief

Tim Dold, Team Leader                                Jennifer AntiCo, Program Specialist

Perry Seaton, Team Leader

Linda Paddock, Program Assistant




To obtain a copy of this report, call the Kansas City Regional Office at (816) 426-3697.
                                                             f

Department of Health and Human Services

       OFFICE OF
  INSPECTOR GENERAL




  MEDICAID ESTATE RECOVERY

          PROGRAMS





         @
             fs SE P.VICr$   “(/0
                                 9
        w
        ~~                           JUNE   GIBBS BROWN
       “<

        z                            Inspector   General

        %

         %-

           %,

               $


            %d3a                             MARCH    1995
             >                              OEI-07-!ZMWW

               EXECUTIVE                         SUMMARY

PURPOSE

To describe States’ efforts in implementing Medicaid estate recovery programs,
focusing on long term care recoveries.

BACKGROUND

Working within Federal guidelines and requirements, each State has its own Medicaid
rules and provisions governing Medicaid long term care eligibility. The States submit
a State Plan that, when approved by the Health Care Financing Administration
(HCFA), provides the basis for the payment of federal funds to cover at least half of
the expenditures incurred by the State in providing medical assistance and
administering programs.

The Omnibus Budget Reconciliation Act of 1993 (OBRA) requires States to recover
expended Medicaid funds from the estates of Medicaid long term care decedents. In
this manner, States are able to return monies back to their Medicaid program and the
Federal government.

METHODOI.X3GY

We conducted     a mail survey of the 50 State Medicaid agencies in October 1993.
Topics addressed include eligibility policy, asset verification, Medicaid recipient fraud
referrals, estate recoveries by type and amount, Medicaid liens, death and spousal
information, and trusts and other influences on estate recovery.

We selected five States in the spring of 1994 to visit based on information and
materials received from the mail survey and our analysis of cost recovery information.
We chose Massachusetts, Minnesota, Missouri, Oregon and Wisconsin because, when
compared to all States, information indicated they had aggressive methods in place to
recover assets. At these States we interviewed State agency staff and State fraud
investigators to supplement information from the surveys.

FINDINGS

Tkmty-seven StatesHave EstateRecowy Bograms

Many States had recovery programs prior to passage of OBRA ’93. Some of these
States are now assisting the States which are facing difficulties in meeting OBRA’S
mandate.

Due to the complexity of establishing recovery programs, 16 States without recovery
programs plan to employ a consultant or have State staff develop procedures, while 12
said they would adapt procedures from another State’s recovery program. Ten of



                                             i
Ihese same States responded that they would employ a combination                   of both of the
above strategies, thus the duplication of responses.

Malure Recoveryl?rogramsare General~Succe.wjidad Cost-Effective

States with recovery programs report that they are cost-effective           and return     substantial
amounts of money to the State and Federal governments.

b	     States with programs recovered over $85 million in FY 1993, with the average
       amount of Medicaid estate recoveries per State being $3.1 million. The State
       of California had the highest amount with over $21 million in FY 1993.

b	     Most successful recovery programs are comprised of an aggressive, well-trained
       staff that have a strong emphasis in recoveries from the sale of homes.

Exivling ProgramsProvideLessons on OperationalChallenger

States have experienced       various challenges   in their efforts to establish    effective   and
efficient estate recovery     programs.

b      Enabling      Legislation

       According      to HCF~ 40 of 50 States will require authorizing or confirming
       legislation    to implement the OBRA ’93 mandatoxy requirements, including
       those States that already had recovery programs prior to passage of the Act.
       Some States have asked for and received extensions from their HCFA regional
       office, allowing them to delay the implementation date for starting an estate
       recovery program.

b      Insufficient Resources and Limited Staffing

       Sixteen States provided information to us on staffing levels. These States had
       one to six individuals assigned to their program. Often these staffers are part-
       time or work only a small percentage of time on estate recovery cases.

k      Liens on Homestead          Properties

       In estate     recovery programs, real properties     are the biggest source of revenue
       recouped       for the State Medicaid programs.      Yet, only 14 States file liens. Of
       these, only six States use the lien recove~ authority granted by the Tax Equity
       and Fiscal Responsibility Act of 1982 (TEFRA). Liens are viewed by many
       States as politically unpopular.

P      Out-of-State Assets

       If a Medicaid applicant does not disclose out-of-State assets, those assets may
       go undetected and the applicant may improperly obtain Medicaid eligibility.




                                                   ii
     b      swiving   spouseEstates

            States that keep files on surviving spouses say eventual recovery can be
            substantial.  Yet, at the time of our survey, only 10 States reported that they
            pursue this type of recovery. The remaining States cite difficulty in tracking the
            death of a surviving spouse and the disposition of the estate.

     HCFA has takenAction to hwkle Stateswith TechnicalAssistance

     The HCFA has conducted numerous training and technical assistance conferences on

     estate recovery during the last two years, including substantial new efforts since the

     time we completed our survey.



     RECOMMENDATIONS


     We believe that improvements in the recovery of long term care costs will result in

     substantial savings over time for both the Federal and State governments. As such, we

     believe that States’ progress in implementing OBRA 1993 requirements desemes

     scrutiny and attention.


     We offer the results of our study to reinforce HCFA’S own initiative in this area.

     We support HCFA’S efforts to provide training and technical assistance to States who

     are attempting to establish recovery programs or to improve the productivity of

     existing units. These efforts are extremely important to the success of OBRA 1993.

     As a concern and expressed need mentioned numerous times by the States, we

     support HCFA’S continued efforts to provide training and technical assistance and act

     as a clearinghouse for identification of effective practices, as well as to monitor States’

     activities and progress.


     The operational challenges reported to us by States, and confirmed in the research

     literature, our prior work in this area, and in discussion with HCFA staff, merit special

     attention. Without overcoming these operational challenges, the impact of OBRA

     1993 will be reduced and the savings that would be generated put in jeopardy. As a

     result, we make the following three recommendations to HCFA:


     % HCFA shoulddeveloppefomumce indications
                                            to trackStatdprogrzxs h
     implementingthe OBRA 1993 requirenwm.

            Such performance indicators would encourage States to staff their recovery
            units appropriately and use all available tools, such as TEFRA liens, to obtain
            appropriate recoveries. This would aid in identif@g States with particular
            problems, establish expectations and a method for benchmarking progress, and
            yet allow States flexibility in finally choosing the mix of tools to achieve
            expected results.




                                                  . ..
                                                  111




—.
The HCFA shouilitqget mechaniwnsfor recoverythathave highdolkupayofl and
Menti&strategiato help make necessaryinfomudiora
                                               avaiikblkto Stateagenciesw pursue
those mecharukrns.

      States have difficulty pursuing out-of-State assets and surviving spouse estates
      because of a lack of information; yet, these are important areas for States to
      pursue and can offer substantial savings to the State. Some of those
      information needs can only be met by interstate data sharing and cooperation,
      which HCFA could facilitate. The HCFA may wish to convene interested
      groups to specifically talk about possible solutions to these problems, which
      could require Federal legislation. For example, these could include mandating
      TEFRA liens and providing for better legislative support for spousal recoveries.

lle HCFA shouldmonitorclmely States’progressih obtatig enablingStati &@Wion
andpumue kgiddive author@ to imposesanctionsorpendies if Statesdb not act withzk
a reasonableperiod of time to implementO13RA1993.

      One of the most difficult problems for HCFA to address is the reluctance that
      might exist in some States to implement OBRA 1993 requirements. While
      HCFA should allow States time to enact the appropriate legislation, some kind
      of penalties should be available for HCFA to use if States don’t take action
      within a specified time frame.

      We have no way of estimating the potential savings to the Medicaid program
      that could result if all States were to adopt proven cost-effective estate recovery
      techniques. However, the experiences of the most successful States we studied
      indicate that such savings would be quite substantial, amounting to tens of
      millions of dollars per year nationwide.

COMMENTS


The HCFA concurred with all the recommendations in this report. (See Appendix D).

The HCFA has since developed performance indicators which the regions are

currently reviewing, and have issued compliance letters to 12 States. Also, the

technical advisory group on third party liability met on February 16, 1995 to discuss

strategies for implementing our recommendation to impose sanctions or penalties.





                                           iv
                         TABLE                   OF CONTENTS




 -CDIJCmN                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1

 FIND~GS           ...................................................... 4

      �
            Twenty-seven States Have Recove~                     Programs        ..................... 4

      �
            Mature Recove~           Programs are Successful and Cost-Effective                        .......... 4

      �
            Existing Programs Protidebssons                   on Operational          Challenges         ......... 6

               �   Enabling Legislation

               �   Insufficient Resources and Limited Staffing

              �    Liens On Homestead Properties

              �    Out-of-State Assets

              �    Surviving Spouse Estates

  �
           HCFA has taken Action to Provide States with Technical Assistance                                      .... 9

=~MWz~AnONS                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..I1

APPENDIcEs

      A - Staffing and Budget for State Recovery Programs as Reported by States

      B - Use of Liens

      C - Recovery from Surviving Spouses

      D - Agency Comments
                              INTRODUCTION


     PURPOSE

     To describe States’ efforts in implementing Medicaid estate recovery programs,
     focusing on long term care recoveries.

     BACKGROUND

     El&ibil@ for Medicati Long Tm      Care

     Each State has its own Medicaid rules and provisions governing Medicaid long term
     care eligibility. These include the guidelines and limitations established by Part 430 of
     “Grants to States for Medical Assistance Programs” in Title XIX of the Social Security
     Act and implementing Medicaid eligibility regulations (42 Code of Federal Regulations
     430).

     Medicaid coverage of long term care is intended for those individuals with inadequate
     resources to provide for themselves. As such, persons with substantial assets are not
     eligible. However, in determining eligibility for Medicaid long term care, States may
     count only income and assets that are available to the applicant or recipient, i.e., those
     funds under the applicant’s control. Certain assets and resources (which can often be
     of any value) are exempt, including the home (in many cases), burial policies, small
     savings accounts, and funds to maintain the spouse in the home. There is also a
     provision for coverage of persons with a higher dollar amount of assets who have
     incurred long term care expenses. Once these individuals have depleted their excess
     resources, they may qualify for Medicaid. In addition, they must also reduce their
     excess income each month in order to remain eligible.

     Studies have found that individuals can qualify for Medicaid quickly and easily while
     preseming income and assets from recovery. Two Office of Inspector General (OIG)
     reports, Medicaid Estate Recoveries (OAI-09-86-00078) and Transfer of Assets: A
     Case Studv in Washington State (OAI-09-88-01340), issued in the late ‘80s, found that
     “many elderly recipients retain sizeable estates which pass to their heirs without
     reimbursement of public costs.”

     A March 1989 U.S. General Accounting Office report entitled Recoveries from
     Nursing Home Residents’ Estates Could Offset Pro~ram Costs (GAO/HRD-89-56)
     found that States need programs to deal with both transfer of assets and recovery
     from estates. This study found that Medicaid recovers little of its nursing home costs
     from recipients’ estates and that expanding the programs to recover from estates of
     institutionalized recipients under age 65 would increase recoveries. In the eight States
     studied, as much as two-thirds of the amount spent for nursing home care for
     Medicaid recipients who owned a residence could be recovered from their estates or
     from the estate distribution to their spouses. The report concluded that estate
     recovery programs can achieve savings while treating the elderly equitably and
     humanely.


                                                  1




-.
Recoupmentof MedicaidLong Tm            CareBene@ @m Assetr

According to a     1992 Health Care Financing Administration (HCFA) and American

Public Welfare     Association collaborative project, States are having limited success with

the recoupment      of money from the estates of deceased Medicaid recipients. At that

time, only nine    States were pursuing the recovely of property held in joint tenancy and

only five States   attempted to recover property transferred through living trusts.


Liens on property are another intricate issue. Section 1917 (a)-(c) of the Social

Security Act [42 United States Code 1396p(b)] says that the State “must seek

adjustment or recovery from the individual’s estate or upon sale of the property

subject to a lien, at a minimum, of the amount spent by Medicaid on the person’s

behalf for services provided in a nursing facility...!’ The law applies this to

permanently institutionalized individuals who the State determines cannot reasonably

be expected to be discharged and return home, including individuals who quali$ as

both permanently institutionalized individuals and who are at least 55 years old.


Prior to 1993 only a few States used liens as a means to recover Medicaid payments.

These States followed the rules outlined by Section 1917 of the Social Security Act and

can utilize the lien recovery authorization granted by the 1982 Tax Equity and Fiscal

Responsibility Act (TEFRA). TEFRA liens have great authority to recoup under

many circumstances, yet most State legislatures are reluctant to approve this law.


States are required to seek recovery of the amounts spent by Medicaid on

permanently institutionalized individuals over the age of 55 for nursing facility services,

home and community based services, and related hospital and prescription drug

services. At State election the State can, in addition to these services, collect for any

other services provided under the State plan. Recoveries may come either from the

individual’s estate (after death) or from the sale of property subject to a lien (which

could be during the individual’s lifetime). In addition, the HCFA State Medicaid

Manual issuance of September 1994 maintains that “States are not required to use the

Supplemental Security Income intent to return home rule for purposes of determining

whether an individual is permanently institutionalized for purposes of estate recovery.”


Effective October 1, 1993, the Omnibus Budget Reconciliation Act requires all States

to establish recovery programs. These programs may be developed in any manner

that is approved by each State. However, the law permits a delayed compliance date

for States requiring authorizing or conforming State legislation. Nevertheless, the

State must take action during its first legislative session after August 1993, with a

delayed compliance date no later than the first day of the first quarter immediately

after the close of the first legislative session.


Even though the law mandates action during the first legislative session after

August 1993, 12 States do not plan to enact legislation on estate recovery programs

until calendar year 1995, according to a July 1994 HCFA Transmittal. These States

have requested and been granted legislative extensions from their respective HCFA

regional offices.



                                               2

METHoDoInGY

Mail SunJey

The inspection was conducted in two phases. In phase one, we conducted a mail
survey of the 50 State Medicaid agencies. While the survey was comprised of many
closed-ended questions, we also used some open-ended questions that provided more
in-depth information to explain and expand upon close-ended responses.

The surveys were submitted to State Medicaid agencies in late October 1993. We
received our final State responses in late May 1994.

Fke StateSampk

In phase two, we selected a judgmental sample of five States based on the information
obtained from phase one. We chose Massachusetts, Minnesota, Missouri, Oregon and
Wisconsin because of the comparative effectiveness of their estate recovery programs
and information completed on their surveys. We visited each State and used data
collection instruments to conduct interviews with State Medicaid agency staff and State
Medicaid fraud investigators. This technique was also used to follow up on responses
reported in the sumeys.

Analysis

The inspection team summarized and tabulated the responses to all the survey
questions. The responses were quantified to determine how many State Medicaid
agencies have programs to identify and prevent transfers of assets, the outcomes from
these identification systems, how many States have recovery programs, what those
programs entail, and the dollar value of assets and estates which have been recovered.

scope

This report is one of two related reports. A companion report will focus on eligibility
determinations, verification of information presented at application, and referrals of
potential fraud to Medicaid Fraud Control Units.

We conducted our review in accordance with the Standardsfor Inspectionsissued by
the President’s Council on Integrity and Efficiency.




                                           3

                                    FINDINGS
?Iwnty-sevenStatesHave EstateRecoveryRograms

Twenty-two of the 27 States with recovery programs had programs before the

Omnibus Budget Reconciliation Act of 1993 (OBRA ‘93). According to survey

information, a few States have been recovering Medicaid expenditures for a couple of

decades or more, with a majority of the 27 States beginning their recovery programs in

the late ‘80s/early ‘90s. Although over half of all States have recovery programs, most

of these States still sought authorizing or confirming legislation to implement the

OBRA ’93 mandatory requirements.


Twenty-three States did not have recovery programs at the time of our review but are

now mandated by the OBRA ’93 to develop a recovery program in their State. Due

to the complexity of establishing a recovery program, 16 of these States plan to

employ a consultant or have State staff develop procedures for the program’s

operation. Twelve said that they would adapt procedures from another State’s

recovery program, with ten of these States responding that they would employ a

combination of both of the above strategies, thus the duplication of responses. One

State said they would adapt procedures from an existing tax lien agency. Another

State said that they would acquire the input of public special interest groups

concerning estate recovery. One State simply did not know how they would develop

operational guidelines for a recovery program.


At the time of our review, over half of the 23 States indicated they would need

training on procedural issues and guidelines/policies used by other States. Twelve also

said that they would need staff training on the law and legal procedures, emphasizing

once again the technical complexity of estate recovery programs.


MatureRecovery_ms           are GenerallySucwssjidand Cost-Efiective

  b    Existing Programs   report   in Excess of $85 Million in FY 1993 Recoveries

       States with recovery programs report that they are cost-effective and return
       substantial amounts of money to the State and Federal governments. The
       average amount of Medicaid estate recoveries per State with a recovery
       program in Fiscal Year 1993 was $3.1 million. The State of California had the
       highest amount with over $21 million in FY 1993. Overall, States recovered
       over $85 million (Federal and State dollars) in FY 1993. (See Appendix A).

       Of those States that reported budget information, the typical recovery ratio
       reported was approximately 9 to 1. We did not verify the budget information
       as accounting methods differ from State to State.

       The chart on the following page shows the top five States in terms of dollar
       amounts recouped in estate recovery.



                                              4

             ESTATE                  RECOVERY

                       TOD Five States in FY 1993
 . . . . . .



                                                             ... .. ..... .. .


                                                                                      I




           CA          MA           NY             IN             MN




    The five States shown above recovered over $50 million dollars in Medicaid

    recoveries in FY 1993. In addition, increased collections in FY 1994 and

    FY 1995 should continue in these States as future projections of recovery look

    promising. Over theyears, these five States have developed

    well-established, cost-effective estate recovery programs.


    We found that those States with mature or long-standing recovery programs

    were generally more successful than the States with recently developed

    programs. This should remain true due to the lengthy start-up time associated

    with developing estate recovery programs. The HCFA Third Party Liability

    (TPL) Branch confirmed this, stating that it takes two to three years for most

    recovery programs to become cost-effective.


b   Successful Recovery Units Demonstrate     Identifiable Strengths




                            . Tra~~staff
                            o Aggressiveness
                            � FOCUS on Homes
                            .   Inventive!


                                         5

      During our onsite visits, we learned that successful recovery programs had
      specific strengths. These typically included a well-trained staff that can
      aggressively or doggedly pursue the verification of income, assets and property.
      Recovery units that have a strong emphasis in home recoveries and a readiness
      to litigate usually returned large amounts to the Medicaid program through the
      sale of real property.

Etini?lgl%gnnns l?ovkk?Lewons on      optional   challenges

  b   Enabling Legislation

      According to I-ICF& 40 of 50 States will require authorizing or confirming

      legislation to implement the OBRA ’93 mandatory requirements, including

      those States that already had recovery programs prior to passage of OBRA ’93.

      As such, State enabling legislation is required for over half of the States which

      do not have estate recovery programs. Some States have asked for and

      received extensions from their Attorney General’s office, allowing them to delay

      the implementation date for starting an estate recovery program. HCFA

      reported in July 1994 that 12 States do not plan to enact legislation on estate

      recove~ programs until calendar year 1995.


      States indicate that legislation to establish Medicaid recovery programs is

      unpopular and difficult to get passed. The give-and-take legislative process to

      get estate recovery program language approved will take considerable time in

      some of the States. Also, this type of legislation is quite technical and may

      require changes in existing State legislation. States which do not have estate

      recovery programs said that political sensitivity and citizen concerns within the

      State are often very large impediments in establishing Medicaid estate recovery

      programs.


  w   Insufficient Resources and Limited Staffing

      Most of the 27 operating recovery programs are comprised of staff from a
      variety of disciplines. Professionals with accounting, investigative and legal
      backgrounds are commonly found in these settings. As shown in Appendix ~
      over half of the 27 States have one to six individuals assigned to the everyday
      monitoring and followup of recovery cases. However, few States are able to
      budget for these positions on a full-time basis. Many of the staffers are
      currently in a Third Party Liability or Cost Benefits Recovery unit devoting only
      1/3 to 1/2 of their time to Estate Recovery. Most States indicate that these
      limitations severely restrict their recovery capability,

  F   Liens on Homestead     Properties

      In estate recovery programs, real property of the deceased Medicaid long term
      care recipients is the most frequently recovered item, followed by checking
      accounts, savings accounts, and personal needs funds of nursing home patients.
      In terms of dollar amounts recovered, real properties are also the biggest


                                           6

source of revenue recouped for the State Medicaid program, followed by
savings and checking accounts, personal needs funds, and inheritances and
stocks/bonds.


        $ Amt. of Recovery
                  by Type of Item
                                                                      Twe
                                                                       . . of Reoovew Item

                                                    EzlHomes
                                                                     Savings kcts.
        (25

                                                    �
                                                    ,.1:,:,::::::
                                                    .:............
                                                    ,::::,:,:,:::,
                                                    :.:+:+:.:.
                                                                     Checking Acots.

                                                                     Pers. Needs Funds
                                            (2%)

                                                                     Inheritance
                                            (4%)

                                                                     Stookslbonds




Fourteen States file liens on property (See Appendix B). In almost all
instances this is a lien placed on the homestead property of the Medicaid long
term care recipient. However, many States do not use liens because they
believe that liens present a public relations problem. Some States feel that
senior lobby groups can prevent home lien recoveries. Some States also choose
not to employ liens because of the perception that the elderly have worked all
their lives to retain their homestead property. Once they become sick or
institutionalized, the appearance may be that the State takes everything away
from the Medicaid applicant (including their home).

Six States utilize TEFRA liens. TEFRA liens grant authority to recover costs
of all Medicaid services by imposing liens on real property, thus protecting the
State’s interest in the property in the event that it is sold or transferred. Estate
recovery may then be made at the time the property is sold or transferred or
upon the death of the Medicaid beneficiary. TEFRA lien benefits are the
“immediate recovery of monies when the realty is sold during the lifetime of the
beneficiary and the priority position of the State’s claim against available
probate assets. Funds are reimbursed at settlement from proceeds of sale
rather than at the closing of the estate where the State only shares as a general
creditor.”1 TEFRA liens, however, have severe restrictions. For instance,
TEFRA liens cannot be placed if the non-institutionalized spouse is still living
in the home, if there is a child living in the home under the age of 21 or if

lfrom Estate Recove rv Reference Guide, produced by the APWA & HCF~
October 1994, pgs. 29-35.
    there is a blind or disabled child of any age living in the home. Also, if there is
    a sibling of the beneficiary who has an equity interest in the home, and the
    sibling was residing in the home for a period of at least one year immediately
    before the date of the individual’s admission to the medical institution, no
    TEFRA lien can be placed. These restrictions are a reason why few States use
    TEFRA liens. In addition, TEFRA liens are as unpopular as estate recovery
    programs in many States, and will require legislative changes in those States
    which choose to make TEFRA liens an option.

�   Out-ofState Assets

    The States we visited said they have limited capabilities to determine and verify
    the existence and amount of a Medicaid recipients’s out-of-State financial and
    property holdings. If a Medicaid applicant does not disclose all out-of-State
    assets, there is a very good chance that those assets will go undetected and the
    applicant may improperly obtain Medicaid long term care benefits. States
    listed several barriers that make it difficult to recover out-of-State property
    such as probate codes which vary by State, inability to attach liens in other
    States, and lack of knowledge on how to recover assets in other States.

    Another factor that    impedes out-of-State asset verification is the inability of
    States to go beyond    what is reported. It is virtually impossible for a State to
    examine all possible    assets. Therefore, unreported assets are not usually
    investigated. These    assets are normally discovered only through fortuitous tips
    from third parties.

    State of Wisconsin staff reported to us during the onsite visit that they had
    difficulties in learning about out-of-State properties. Even when they did find
    out about out-of-State property, they had difficulty pursuing recoveries in other
    States (except a couple of adjoining States with which they had developed
    cooperative interstate agreements).

    The State of Massachusetts   said that they do occasionally find out about
    holdings of out-of-State property of Medicaid long term care recipients.
    Massachusetts   State agency staff said that they follow the particular probate
    codes of whatever State in which the Medicaid recipient held property.      They
    did not perceive the recovery of identified out-of-State assets as a big
    impediment because, for example, they would simply follow Florida probate
    procedure to recover real or vacation property in Miami Beach, Florida.
    However, they reiterated the problem of seldom finding out about additional
    and/or out-of-State property holdings.

�   Survivin
         g Spouse Estates

    The OBRA ’93 provides for recovery from the estate of a deceased surviving
    spouse, but only 10 States currently pursue this type of recovery (See
    Appendix C). The remaining States cite difficulty in tracking the death of a
    surviving spouse for many reasons: no on-line capability of denoting updated


                                           8

       information on the State Medicaid records, no cross-referenced obituary
       clipping bureaus, and current low rates of recovery amounts on these types of
       cases. States also said that the real property is often legally transferred to
       someone else, preventing recove~.

       states  also expressed difficulty in monitoring surviving spouse cases. To be
       successful, the recovery units must keep suspension files with financial and
       demographic information on all the well spouses of nursing facility patients.
       Although it is often unwieldy and cumbersome to remain up-to-date and
       knowledgeable of the status of surviving spouses, States employing this strategy
       tout its success. Also, while recovery levels are currently low in surviving
       spouse cases, States feel that the revenue from these recoveries will soon grow
       considerably.

HCFA has takenAction ti bvii.zk State withT~hnical Ass&tance

The HCFA has responsibility for monitoring and assisting States in their development

of estate recovery programs. It has conducted numerous training conferences for TPL

coordinators and Medicaid State representatives. There have also been panel

discussions on estate recovery presented at State Medicaid Director’s meetings. The

HCFA contacted all 50 States in the summer of 1994 to determine implementation

dates of recovery programs, and released an “OBRA ’93- Estate Recovery Program

Survey Results.” The HCFA staff have also attended elder law conferences, discussing

its Medicaid recoveries and the fiscal impact of estate recoveries on Medicaid budgets.


In September 1994, HCFA released a State Medicaid manual issuance to provide

guidance to States in meeting the requirements of OBRA 1993. In November 1994,

HCFA released a resource guide for States in collaboration with the American Public

Welfare Association. The HCFA is now scheduled to release a directive on those

States which did not initiate an estate recovery program during their State legislature’s

first legislative session. This forthcoming issuance will report those States which are

not in compliance by year-end 1994.


The HCFA has also contracted with a consulting firm to perform an assessment of

estate recovery programs in NY, CA CT, and FL. The assessment will focus on

OBRA ’93, trusts, and transferring of assets.


These efforts by HCFA respond to the needs expressed by States in response to our

survey. In their survey responses, some States indicated an ongoing need for

continued technical assistance from HCFA. Thirteen States (at the time of our review

in October 1993- May 1994) desired additional training or technical assistance focused

on making their recovery programs more effective. For example, one State said that

HCFA should “provide technical assistance and publish uniform guidelines for States

to use regarding asset verification procedures.” This State also said that HCFA should

“conduct workshops or training sessions for State staff.” Few States reported

networking or sharing best practices with one another. We also found that some

States are unaware of the cumulative dollar amount which can be recovered from





                                             9

personal needs finds ofnursing facili~ patient accounts. Inaddition, we found that
not all States were active in contacting HCFA for technical assistance.




                                         10

                    RECOMMENDATIONS

We believe that improvements in the recovery of long term care costs will result in

substantial savings over time for both the Federal and State governments. As such, we

believe that Stat~s’ progress in implementing OBRA 1993 re~uirements deserves

scrutiny and attention.


We offer the results of our study to reinforce HCFA’S own initiative in this area.

We support HCFA’S efforts to provide training and technical assistance to States who

are attempting to establish recovery programs or to improve the productivity of

existing units. These efforts are extremely important to these success of OBRA 1993.

As a concern and expressed need mentioned numerous times by the States, we

support HCFA’S continued efforts to provide training and technical assistance and act

as a clearinghouse for identification of effective practices, as well as to monitor States’

activities and progress.


The operational challenges reported to us by States, and confirmed in the research

literature, our prior work in this area, and in discussion with HCFA staff, merit specia

attention. Without overcoming these operational challenges, the impact of OBRA

1993 will be reduced and the savings that would be generated put in jeopardy. As a

result, we make the following three recommendations to HCFA.


The HCFA shoulddeveloppeflonnance indicattnxto trackStates’progressih
irnplenwntkgthe OBRA 1993 requirement.

Such performance indicators would encourage States to staff their recovery units
appropriately and use all available tools, such as TEFRA liens, to obtain appropriate
recoveries. This would aid in identifying States with particular problems, establish
expectations and a method for benchmarking progress, and yet allow States flexibility
in finally choosing the mix of tools to achieve expected results.

77w HC’FA shoukittqet znechanikrns
                                for recoverythathave highdolikrpayoff and
&n@ strategii=sto hdp make necasaq infornu&n avaiiizbk-toState;g&&2x to pumu.e
three mechanisms.

States have difficulty pursuing out-of-State assets and surviving spouse estates because
of a lack of information; yet, these are important areas for States to pursue and can
offer substantial savings to the State. Some of those information needs can only be
met by interstate data sharing and cooperation, which HCFA could facilitate. The
HCFA may wish to convene interested groups to specifically talk about possible
solutions to these problems, which could require Federal legislation. For example,
these could include mandating TEFRA liens and providing for better legislative
support for spousal recoveries.




                                             11

l%? HCFA shoukl rnonhr cihse~ States’pmgmw in obtaihingenabibzgSate ikgidiztion
andpumue lqjskztie authorityto iinpwe sanctkmsorpndlies # Statesdo not act within
a reasonablepaid of time to implkmentOBRA 1993.

One of the most difficult problems for HCFA to address is the reluctance that might
exist in some States to implement OBRA 1993 requirements. While HCFA should
allow States time to enact the appropriate legislation, some kind of penalties should be
available for HCFA to use if States don’t take action within a specified time frame.

We have no way of estimating the potential savings to the Medicaid program that
could result if all States were to adopt proven cost-effective estate recovery
techniques. However, the experiences of the most successful States we studied
indicate that such savings would be quite substantial, amounting to tens of millions of
dollars per year nationwide.

COMMENTS

The HCFA concurred with our three recommendations.          The HCFA has since
developed performance indicators which the regions are currently reviewing, and have
issued compliance letters to 12 States. Also, the technical advisory group on third
party liability met on February 16, 1995 to discuss strategies for implementing our
recommendation to impose sanctions or penalties.




                                           12

                              APPENDIX                   A


STAFFING AND BUDGET FOR STATE RECOVERY PROGRAMS AS
REPORTED BY STATES




 OR                  12 A                c           E        $550,000     $4,000,000
 cl-’                17            BC                E    not available    $3,806,774
 WI                   5       AB         C      D             $346,808     $3,450,886
 NH                   5       A           c          E        $167,382     $2,002,058
 AL                   2                   CD                   $99,000     $1,666,351
 WA                   5       AB          C     D              $89,000     $1,300,000
 MO                   5       A           CD                  $135,759     $1,274,876
 MD     I             41                  CDEI                 $96,174 I   $1,162,480
 ND                   3[                  CD                   $44,000 I    $806,241
 ID                   2       A           c                    $75,000      $587,580
 NJ                   2       A           c                   $100,000      $550,300
 UT                   2            B             D             $26,300      $414,384
 KS                   4       A           CD                  $120,000      $178,000
 FL         No response       Vary/district               not available     $159,141
 MT                       1        B                           $15,000      $150,000
 AR                   4                          D             $41,000      $122,394



                                              A-1

 co                       2              c          E            $273,883 I           $71,559
           I                  I                         I

 HI                       91A            CD                       $11,135 I           $46,958
 VA                       7       AB     C     D    E             $25,000 I           $31,629
           I                1                           1
 RI                       31A            CD                 not available        not available
           o
 VT        I   No response I             c              I   not available        not available

 Total Medicaid Estate Recoveries in Fiscal Year 1993                             $85,031,118


INo response: States that were unable to report their “No. of Staff’ information typically
have recovery programs that are operated at the county level.


2A     =
               accountants/analysts (14 States)
 B=            investigators (7 States)

 c=            “clerical/’ administrative, and research positions (19 States)

 D=            attorneys (13 States)

 E=            supervisors/managers (7 States)





                                             A-2

                               APPENDIX               B


                                 USE OF LIENS

At the time of our survey (October 1993- May 1994), the following 14 States reported
that they use ~.

      Alabama *

      California *

      Colorado *

      Connecticut *

      Illinois

      Maryland *

      Massachusetts

      Montana

      New Hampshire

      New Jersey

      New York *

      Rhode Island

      Utah

      Wisconsin


      [The State of Minnesota
 was planning to begin implementation   of TEFRA liens in
      July 1994, according to
 a HCF~APWA survey.]


       $%
        Uses TEFRA     liens




                                          B-1
                              APPENDIX                  C


                     RECOVERY FROM SURVIVING SPOUSES

At the time of our survey, the following ten States reported that they recover from the
estate of the “suwivin~ sDouse.”

       California    (pending, due to recent court action in December 1994)

       Illinois

       Kansas

       Minnesota     (applies to information from Hennepin county, MN only)

       Missouri

       New Hampshire

       New York

       North Dakota

       Oregon

       Wisconsin





                                           c-l

APPENDIX        D

 AGENCY COMMEITIS




       D-1
.
    .            ,,twc$b
         # +’               $.
                                                                                                          Health Care
         *�                      DEPARTMENT      OF HEALTH&       HUhqANSKRVICES
        :2
                                                                                                          Financing Administration
         .
          5       -g
           %’
            ‘4
                +vd, o

                                                                                                           Memorandum
                 >




                           DATE            MAR 81995

                           FROM	          Bruce C. Vladeck ~etiuL{
                                          Administrator

                           SUBJECT	       Office of Inspector General Draft Report:     “Medicaid     Estate   Recove~
                                          Programs,” (OEI-07-92-00880)

                           TO	            June Gibbs Brown
                                          Inspector General


                           We reviewed the subject final report which describes States’ efforts in implementing
                           Medicaid estate recove~ programs.    Our comments are attached for your review.

                           Thank you for the opportunity      to review and comment on this report.      We commend
                           OIG staff for their willingness   to act on our previous comments.

                           Attachment
Page 2

At the bottom of page 7, the authority of the Tax Equity and Fi&al Responsibility Act
of 1982 (TEFRA) liens is overstated. While it is true that TEFRA liens can be placed
on the real property of permanently institutionalized beneficiaries, while they are still
alive, there are severe restrictions. The TEFRA liens cannot be placed if the community
spouse is still living in the home (primary residence) nor can a lien be placed if there is
a child living in the home under the age of 21 or if there is a blind or disabled child of
any age living in the home. Finally, if there is a sibling of the beneficiary who has an
equity interest in the home, and the sibling was residing in the home for a period of at
least 1 year immediately before the date of the individual’s admission to the medical
institution, no lien can be placed. These limitations should be pointed out in the text as
reasons why more States are not using TEFRA liens.
